Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  CHILDREN’S USE OF HEALTH
   CARE SERVICES WHILE IN
   FOSTER CARE: ILLINOIS



           -




                    Inspector General

                    FEBRUARY 2004
                    OEI-07-00-00642
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452, as
amended, by Public Law 100- 504, is to protect the integrity of the Department of Health and
Human Services (HHS) programs, as well as the health and welfare of beneficiaries served
by those programs. This statutory mission is carried out through a nationwide network of
audits, investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspec tions) that focus on issues of concern to the department,
the Congress, and the public. The findings and recommendations contained in the
inspections reports generate rapid, accurate, and up- to- date information on the efficiency,
vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees State Medicaid
fraud control units, which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
A B S T R A C T 



                              Our study determined that all 50 sampled children in the Illinois
                              foster care program received Medicaid services, and nearly all
                              received their most recent required Early and Periodic Screening,
                              Diagnosis, and Treatment (EPSDT) medical and dental
                              examinations and initial health examination upon entry into foster
                              care. In contrast, less than half of the sampled children received a
                              comprehensive health care evaluation and mental health screen.
                              Less than half of case files contained a copy of the medical history,
                              which is required by State and Federal regulations and designed to
                              ensure that children are provided with needed health care services.
                              As a result, several children received duplicate services. The Office
                              of Inspector General (OIG) recommended that the Administration
                              for Children and Families (ACF) work with the Illinois Department
                              of Children and Family Services (DCFS) to increase the number of
                              comprehensive health evaluations and mental health screenings
                              conducted within required time frames; and that health
                              information for children in foster care is updated on an ongoing
                              basis, provided to foster care providers, and maintained in the case
                              file. OIG also recommends that the Centers for Medicare &
                              Medicaid Services (CMS) work with the Illinois Department of
                              Public Aid to prevent potentially unnecessary costs to the Medicaid
                              program resulting from duplicate services. ACF responded that it
                              is working with DCFS to improve the provision of health and
                              mental health services to children in foster care and that the
                              provision of these services will be addressed in Illinois’ Program
                              Improvement Plan in response to a Child and Family Services
                              review. CMS agrees in part with our recommendation, recognizing
                              the concern about the potential for Federal and State funds being
                              unnecessarily expended for duplicate Medicaid services; however,
                              CMS believes DCFS should work to better inform foster care
                              parents and providers of the availability of services and the State
                              requirements under the Healthworks and Passport program.




O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   i
E X E C U T I V E                                             S U M M A R Y 




                              OBJECTIVE
                              To determine whether sampled children in the Illinois foster care
                              program receive health care services.


                              BACKGROUND
                              Currently, there are an estimated 565,000 children in foster care 

                              nationwide, many of whom are reportedly in poor health. 

                              Compared with children from the same socioeconomic backgrounds, 

                              children in foster care experience much higher rates of serious 

                              physical and psychological problems. Illinois is the focus of this 

                              inspection and is one of a series of eight States chosen to represent 

                              a diverse cross-section of foster care nationwide. 


                              All Title IV-E children in the Illinois foster care program are 

                              eligible for Medicaid. Federal Early and Periodic Screening, 

                              Diagnosis, and Treatment (EPSDT) guidelines require each State to 

                              make preventive health care services available to Medicaid-eligible 

                              individuals under the age of 21, at intervals which meet reasonable 

                              standards of medical and dental practice, as outlined in 

                              Sections 1902(a)(43) and 1905(r) of the Social Security Act (the Act). 

                              In addition, Sections 472(h) and 1902(a)(10)(A)(i)(I) of the Act 

                              require States to provide Medicaid, or equivalent health insurance 

                              coverage, to children eligible to receive Title IV-E funds. 


                              This inspection is based on information gathered from multiple 

                              sources: reviews of Federal and State policies; analysis of child-

                              specific Medicaid claims data and case file documentation for 

                              50 randomly-sampled children in foster care; interviews with foster 

                              care providers (e.g. foster parents and residential facility staff) and 

                              caseworkers for the children in our sample; and interviews with the 

                              Illinois Department of Children and Family Services (DCFS), 

                              Illinois Department of Public Aid, and other State agency officials. 

                              Our analysis focused on a 3-year Medicaid claims period for 

                              children in foster care ending on December 31, 2002.





O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   ii
E   X   E      C      U       T       I   V   E         S      U         M     M    A     R    Y




                                              FINDINGS
                                              All sampled children had Medicaid coverage and claims for
                                              health care services
                                              In accordance with Federal and State regulations, all of the
                                              sampled children had Medicaid coverage. All 50 children had at
                                              least one Medicaid claim for health care services.

                                              All sampled children received their most recent EPSDT
                                              medical examinations, and 76 percent received their most
                                              recent EPSDT dental examinations, in accordance with State
                                              guidelines
                                              Almost all of the sampled children who received their most recent
                                              dental examination within required timeframes had a foster care
                                              provider who was aware of the availability of Medicaid services,
                                              whereas half of the children who did not receive their most recent
                                              dental examination within required timeframes had a foster care
                                              provider who was unaware of the Medicaid services available.

                                              Ninety-seven percent of sampled children received their
                                              Initial Health Screening within required timeframes
                                              Illinois requires that each child entering State custody receive an
                                              Initial Health Screening within 24 hours to identify and document
                                              acute medical problems and/or abuse, and to provide the
                                              caseworker with appropriate medical information to place the child.
                                              The Initial Health Screening is scheduled by the caseworker and
                                              can be performed at a hospital, clinic, or physician’s office which
                                              makes access available 24 hours a day, 7 days a week.

                                              Only 42 percent of sampled children received
                                              Comprehensive Health Evaluations within required
                                              timeframes
                                              Illinois requires that children entering State custody receive a
                                              Comprehensive Health Evaluation within 21 days that includes an
                                              in-depth physical examination and comprehensive medical and
                                              psychosocial history. These examinations are usually performed by
                                              a primary care physician during regular business hours and
                                              scheduled by the child’s foster care provider.




        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   iii
E   X   E      C      U       T       I   V   E         S      U         M     M    A     R    Y


                                              Only 1 of 14 sampled children required to receive a Mental
                                              Health Screen had one completed within required timeframes
                                              Illinois requires a Mental Health Screen to be performed within
                                              21 days of entering State custody for all children aged 5 or older.
                                              Mental health screens are performed in conjunction with
                                              Comprehensive Health Evaluations, and are usually performed by
                                              a primary care physician limiting access to regular business hours.

                                              Forty-eight percent of case files had a Health Passport
                                              Federal law requires that a child’s health records be provided to the
                                              foster care provider at the time of the child’s placement. This
                                              information is important so that appropriate health care services
                                              may be provided to children in foster care. Foster care providers
                                              and caseworkers indicated that a child’s medical history (i.e. Health
                                              Passport) is provided at the time of placement in a majority of
                                              cases. However, only 48 percent (24/50) of the case files contained
                                              copies of the Health Passport, and only 8 of these Health Passports
                                              contained complete, accurate, and up-to-date medical information.
                                              Because of missing or incomplete Health Passports, which would
                                              have indicated the immunizations that had been received, some
                                              children received duplicate immunizations.


                                              RECOMMENDATIONS
                                              We recommend that the:

                                              Administration for Children and Families (ACF) work with the
                                              Illinois DCFS to increase the number of:

                                              o	      Comprehensive Health Evaluations and Mental Health Screens
                                                      conducted within required timeframes

                                              o	      Health Passports that are (1) updated on an ongoing basis,
                                                      (2) reviewed for accuracy and completeness during the
                                                      Administrative Case Review, and (3) copied each time the
                                                      health information is updated, so that a copy of the most recent
                                                      Health Passport is maintained in the case file and provided to
                                                      the foster care provider

                                              Centers for Medicare & Medicaid Services (CMS) work with ACF
                                              and the Illinois Department of Public Aid to:

                                              o	      Prevent potentially unnecessary costs to the Medicaid program
                                                      resulting from duplicate services


        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   iv
E   X   E      C      U       T       I   V   E         S      U         M     M    A     R    Y



                                              AGENCY COMMENTS
                                              ACF indicated the background provided a useful perspective of the
                                              problem and the addition of the case file documentation and
                                              analysis of claims data were also informative. ACF noted that it is
                                              working with DCFS to improve the provision of health and mental
                                              health services to children in foster care and that the provision of
                                              these services will be addressed in Illinois’ Program Improvement
                                              Plan in response to a Child and Family Services Review. Child and
                                              Family Services Reviews measure individual States’ performance
                                              related to the health and well-being of children in the child welfare
                                              system.

                                              CMS agrees in part with our recommendation, recognizing the
                                              concern about the potential for Federal and State funds being
                                              unnecessarily expended for duplicate Medicaid services; however,
                                              CMS believes State foster care agency should work to better inform
                                              foster care parents and providers of the availability of services and
                                              the State requirements under the EPSDT program.




        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   v
T A B L E                             O F                  C O N T E N T S 




                     ABSTRACT ..................................................................................................... i



                     EXECUTIVE SUMMARY ................................................................................ ii



                     INTRODUCTION ............................................................................................ 1



                     FINDINGS .................................................................................................... 10


                          All sampled children had Medicaid coverage and claims for health 

                          care services .............................................................................................. 10


                          All sampled children received their most recent EPSDT medical 

                          examinations, and 76 percent received their most recent EPSDT 

                          dental examinations, in accordance with State guidelines ...................... 11


                          Ninety-seven percent of sampled children received Initial 

                          Health Screenings within required timeframes ....................................... 13


                          Only 42 percent of sampled children received Comprehensive 

                          Health Evaluations within required timeframes ..................................... 13


                          Only 1 of 14 sampled children received a Mental Health Screen 

                          within required timeframes ...................................................................... 14


                          Health Passports are in only 48 percent of case files and are not 

                          updated at the Administrative Case Review ............................................ 16



                     RECOMMENDATIONS ................................................................................. 18



                     APPENDICES .............................................................................................. 20


                                  Appendix A: Sampled Children....................................................... 20


                                  Appendix B: Medicaid Claims for Sampled Children ..................... 22


                                  Appendix C: Agency Comments - ACF ........................................... 25


                                  Appendix D: Agency Comments - CMS........................................... 28




                     ACKNOWLEDGMENTS................................................................................ 29



O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H E A L T H C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S
I N T R O D U C T I O N 





                              OBJECTIVE
                              To determine whether sampled children in the Illinois foster care
                              program receive health care services.


                              BACKGROUND
                              Currently, there are an estimated 565,000 children in foster care
                              nationwide, 1 many of whom are reportedly in poor health. To
                              determine if children in foster care are receiving mandated health
                              care services, we selected eight States for review. 2 The States were
                              chosen to represent a diverse cross-section of foster care
                              nationwide. Illinois was selected because of its large size,
                              geographic location, and fee-for-service provision of Medicaid
                              services. Illinois had 33,125 children in foster care at the end of the
                              Federal fiscal year 2000, based on the most recent Federal data
                              available. 3 The Administration for Children and Families (ACF)
                              has regulatory oversight of the Title IV-E foster care program,
                              including approval of State plans to ensure that State foster care
                              programs are operating within Federal guidelines.

                              Compared with children from the same socioeconomic backgrounds,
                              children in foster care experience much higher rates of serious
                              physical and psychological problems. 4 Dental problems are
                              prevalent in the foster care population and physical health
                              problems (e.g. delayed growth and development, malnutrition, and




                              1Retrieved November 1, 2002 from
                                http://www.acf.dhhs.gov/programs/cb/dis/afcars/cwstats.html.

                              2Other States selected for review are: Georgia, Texas, Kansas, New Jersey,
                                New York, North Dakota, and Oregon.

                              3FY  2000 Foster Care Entries, Exits, and In Care on the Last Day. Retrieved
                                December 12, 2003 from
                                http://www.acf.hhs.gov/programs/cb/dis/tables/entryexit.htm.

                              4Health   Care Issues for Children in Foster Care, March 25, 2002. Retrieved
                                December 12, 2003 from
                                http://www.casey.org/cnc/documents/health_care_issues.pdf.


O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   1
I   N   T    R       O      D         U   C   T    I    O       N


                                              asthma) affect 30 to 40 percent of children in the child welfare
                                              system. 5

                                              Children in foster care have greater health care needs, yet many
                                              foster care providers (e.g. foster parents and residential care facility
                                              staff) report having difficulty finding health care professionals who
                                              are willing to care for these children. 6 The health care available for
                                              children in foster care is often characterized by lack of access; lack
                                              of information sharing among health care providers, child welfare
                                              workers, and foster care providers; and long delays in obtaining
                                              services. 7 Furthermore, studies have shown that low percentages
                                              of children in foster care are actually receiving health care services.
                                              Therefore, concern exists that children with the greatest health
                                              care needs may not be receiving needed services.

                                              The Early and Periodic Screening, Diagnosis, and Treatment
                                              (EPSDT) program is designed to screen for, diagnose, and treat
                                              medical conditions in Medicaid-eligible individuals under age 21
                                              that might otherwise go undetected or untreated. However, a
                                              General Accounting Office report released in July 2001 states that
                                              available data from short-range studies show that the percentage of
                                              children in the general population receiving EPSDT services is very
                                              low. 8

                                              Preventive dental care is also included as part of EPSDT. A journal
                                              article reports that adherence to the American Dental Association
                                              recommendations for preventive dental care leads to improved oral
                                              health and practicing preventive behaviors over the long term
                                              yields greater benefits than doing so over the short term. 9




                                              5Fact sheet: The He alth   of Children in Out-of-Home Care. Child Welfare League of
                                                  America. Retrieved December 12, 2003 from
                                                  http://www.cwla.org/programs/health/healthcarecwfact.htm.

                                              6Chernoff,   R. et. al., Assessing the Health Status of Children Entering Foster Care,
                                                  Pediatrics, 93:2, 1994.

                                              7Health  Care of Young Children in Foster Care. Pediatrics, 109:3, 2002. Retrieved
                                                  December 12, 2003 from http://www.aap.org/policy/re0054.html.

                                              8Medicaid:    Stronger Efforts Needed to Ensure Children’s Access to Health Screening
                                                  Services. General Accounting Office, GAO-01-749, July 2001.
                                              9Journal       of Dental Research, March 2003; 82 (3): 223-7.



        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   2
I   N   T    R       O      D         U   C   T    I    O       N


                                              Medicaid for Children in Foster Care
                                              Illinois provides Medicaid coverage to all children in the
                                              Title IV-E foster care program, as well as other eligible children.
                                              Sections 472(h) and 1902(a)(10)(A)(i)(I) of the Social Security Act
                                              (the Act) require States to provide Medicaid, or equivalent health
                                              insurance coverage, to children eligible to receive Title IV-E foster
                                              care program maintenance funds. Federal EPSDT guidelines
                                              require each State to make comprehensive and preventive child
                                              health services available to Medicaid-eligible individuals under the
                                              age of 21, at intervals which meet reasonable standards of medical
                                              and dental practice, as outlined in Sections 1902(a)(43) and 1905(r)
                                              of the Act. Within broad national guidelines, each State establishes
                                              its own eligibility standards for the Medicaid program; determines
                                              the type, amount, duration, and scope of Medicaid services; sets the
                                              rate of payment for services to Medicaid patients; and administers
                                              its own Medicaid program. 1 0 In fiscal year (FY) 2000, Medicaid
                                              payments for children in foster care nationwide totalled over
                                              $3.3 billion.1 1 Illinois Medicaid expenditures to provide health care
                                              services to children in foster care totalled approximately $281
                                              million in FY 2000. 1 2 The Centers for Medicare & Medicaid
                                              Services (CMS) is responsible for Federal oversight of individual
                                              State Medicaid programs.

                                              Illinois
                                              The Illinois foster care program is State-administered and divided
                                              into regional networks. The Illinois Department of Children and
                                              Family Services (DCFS) manages foster care in Illinois. DCFS may
                                              place children with public or private agencies. The Illinois
                                              Department of Public Aid manages the State Medicaid program.
                                              The management of the Illinois foster care program changed
                                              substantially in 1993 due to implemented changes brought about by
                                              the B.H. Consent Decree. One significant change was the
                                              introduction of the Healthworks program.




                                              10Retrieved         May 20, 2003 from http://cms.hhs.gov/medicaid/eligibility/criteria.asp.

                                              11Medicaid         Statistical Information System (MSIS) Report Fiscal 2000. Retrieved
                                                  December 12, 2003 from http://www.cms.hhs.gov/medicaid/msis/00total.pdf.

                                              12Medicaid   Statistical Information System (MSIS) Report Fiscal 2000: Illinois.
                                                  Retrieved December 12, 2003 from http://www.cms.gov/medicaid/msis/00il.pdf.


        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   3
I   N   T    R       O      D         U   C   T    I    O       N


                                              B.H. Consent Decree
                                              The B.H. Consent Decree13 was the result of a class action lawsuit
                                              brought by the American Civil Liberties Union (ACLU) on behalf of
                                              children in the custody of the Illinois DCFS in 1988. ACLU alleged
                                              violations of the Fourteenth Amendment to the United States
                                              Constitution and the Adoption Assistance and Child Welfare Act of
                                              1980, 42 U.S.C. §§ 620-68, 670-79(a), which requires States to make
                                              reasonable efforts to prevent the unnecessary removal of children
                                              from their homes and the unnecessary placement of children in
                                              foster care. Specifically, child welfare caseloads approached
                                              100 cases-per-worker, work was being duplicated, cases were
                                              scattered to such a degree that monitoring was difficult, there was
                                              a general lack of emphasis on prevention and primary care, and
                                              documentation of medical information was sporadic. 1 4 In 1991,
                                              DCFS reached an agreement in the B.H. Consent Decree on 9 areas
                                              to improve the responsiveness of the Illinois foster care program to
                                              meet the needs of children in custody and improve accountability
                                              within the child welfare system. One of those nine areas was
                                              related to the comprehensive health care of children in DCFS
                                              custody. Illinois’s solution was the implementation of the
                                              Healthworks program.

                                              Program Variation
                                              Each State establishes eligibility standards, determines services,
                                              sets payment rates, and administers its own foster care and
                                              Medicaid programs in accordance with general Federal guidelines.
                                              The resulting diversity produces variations in when and what types
                                              of services children receive in foster care. As such, the experiences
                                              reported in this State-specific report will be unique to the sampled
                                              children’s experiences in Illinois.

                                              Illinois Healthworks
                                              The Healthworks program is a comprehensive program
                                              coordinating the activities of foster care providers, caseworkers,
                                              State program administrators, community-based agencies,
                                              physicians, and medical case managers in providing health services
                                              to children in foster care.




                                              13B.H.      stands for the initials of the first child named in the lawsuit.

                                              14IllinoisDCFS Promotion of Quality and Accountability. Retrieved on
                                                  May 20, 2003 from http://www.State.il.us/dcfs/budproqual.htm.


        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   4
I   N   T    R       O      D         U   C   T    I    O       N


                                              Section 471(a)(22) of the Act requires States to develop a State plan
                                              that includes standards to ensure that children in foster care
                                              placements in public and private agencies are provided quality
                                              services that protect their safety and health. Sections
                                              422(b)(10)(B)(ii) and 475(5)(D) of the Act require procedures to
                                              ensure that a foster child’s health records be reviewed, updated,
                                              and supplied to the foster care provider at the time of placement.
                                              According to Section 475(1)(C) of the Act, health records should
                                              include, to the extent available and accessible, the names and
                                              addresses of the child’s health providers, a record of the child’s
                                              immunizations, the child’s known medical problems, the child’s
                                              medications, and any other relevant health information concerning
                                              the child determined to be appropriate by the State agency.

                                              The aspects of the Illinois Healthworks that we addressed include
                                              the following:

                                              (1) Initial Health Screenings: The DCFS investigator or caseworker
                                              is responsible for ensuring that Initial Health Screenings are
                                              conducted within 24 hours of a child’s entry into State custody to
                                              treat acute medical needs, document possible medical problems and
                                              abuse, and provide the caseworker with appropriate medical
                                              information necessary for placement.

                                              (2) Comprehensive Health Evaluations: Foster care providers are
                                              generally responsible for ensuring that all children receive a
                                              Comprehensive Health Evaluation within 21 days of entering foster
                                              care, which includes an in-depth physical examination,
                                              comprehensive medical history, and, for children 5 years of age and
                                              older, a Mental Health Screen. These thorough evaluations are
                                              important to identify problems early on, especially for children who
                                              may not have received medical care prior to DCFS custody.

                                              (3) Health Passports: A Health Passport is initiated during the
                                              Comprehensive Health Evaluation. Physicians receive an incentive
                                              of $15 to initiate Health Passports as part of the Comprehensive
                                              Health Evaluation. The Health Passport is a manila booklet
                                              containing pertinent medical information relating to
                                              immunizations, family health history, child health visits, child
                                              health information, and a list of previous and current health care
                                              providers. The Health Passport is provided to and kept by the
                                              child’s current foster care provider and is to follow the child
                                              through subsequent placements and providers to ensure continuity
                                              of care. A copy is required to be kept in the child’s case file.


        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   5
I   N   T    R       O      D         U   C   T    I    O       N


                                              A previous study revealed that foster care providers and
                                              caseworkers are inconsistent in updating the Health Passports for
                                              the children in their care, 1 5 although the semiannual
                                              Administrative Case Review1 6 requires it.

                                              EPSDT Guildelines
                                              States establish EPSDT guidelines in accordance with Federal
                                              requirements to provide coverage for preventive child health
                                              services to all Medicaid-eligible individuals under the age of 21. 1 7
                                              State EPSDT programs must provide medical, dental, hearing, and
                                              vision screenings, and other necessary health care and treatment at
                                              intervals established by the State that meet reasonable standards
                                              of practice published by recognized health care organizations.

                                              In addition to the Initial Health Screening and Comprehensive 

                                              Health Evaluation, Illinois DCFS also requires that children 

                                              receive EPSDT medical screenings consistent with Federal EPSDT 

                                              criteria. 


                                              The current EPSDT frequency schedule for the Healthworks 

                                              program requires that medical screenings occur at: 

                                              birth; 1, 2, 4, 6, 9, 12, 15, and 18 months of age; and annually 

                                              between the ages of 2 and 21. Dental examinations are required 

                                              every year beginning at 2 years of age. 1 8 Dental examinations are 

                                              conducted separately from medical examinations. 





                                              15Georgetown      University, Child Development Center. (2000). Meeting the Health
                                                  Care Needs of Children in the Foster Care System, Site Visit Report: Healthworks
                                                  of Illinois. Retrieved December 12, 2003 from
                                                  http://gucdc.georgetown.edu/foster.html.

                                              16Administrative     Case Reviews are reviews conducted every 6 months with the
                                                  caseworker, foster care provider, and other pertinent staff, to incorporate the
                                                  child’s health information into the service plan, to review and update the Health
                                                  Passport, assess the status of the child’s health care, and develop plans for unmet
                                                  health issues. DCFS Foundation Training for New Caseworkers.

                                              17Section       1905(r) of the Social Security Act.

                                              18Handbook    for Providers of Medical Services, Chapter 100 General Policy and
                                                  Procedures, Illinois Department of Public Aid.


        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   6
I   N   T    R       O      D         U   C   T    I    O       N



                                              METHODOLOGY
                                              This inspection focused on the receipt of medical and dental health
                                              care services within EPSDT guidelines; requirements for initial and
                                              comprehensive health screenings and mental health assessments
                                              upon entry into foster care; and the provision of medical
                                              information to foster care providers. This study did not address
                                              follow-up care or the appropriateness of ongoing health care in
                                              meeting the needs of children in foster care.

                                              The inspection is based on information gathered from multiple
                                              sources: reviews of Federal and State policies; child-specific
                                              Medicaid claims data and case file documentation for 50 randomly-
                                              sampled children in foster care; interviews with caseworkers for
                                              each of the 50 children in our sample; interviews with foster care
                                              providers for 46 children in our sample; and interviews with Illinois
                                              State agency officials.

                                              Reasons for State Selection
                                              Illinois was selected due to its large size, geographic location, and
                                              fee-for -service payment of Medicaid health care services. The
                                              Illinois DCFS is responsible for the welfare of children in State
                                              custody.

                                              Sample
                                              Children who met the following criteria were included in the study 

                                              population: (1) were in foster care on December 1, 2002; (2) resided 

                                              in Illinois; (3) were Title IV-E eligible, and (4) had been in 

                                              continuous out-of-home foster care placements for at least 

                                              6 months. DCFS provided us with a list of the 17,153 children who 

                                              met these criteria. We selected a simple random sample of 

                                              50 children in Illinois from the list of children who met the specified 

                                              criteria. Appendices A and B provide information on the children 

                                              included in our sample, and the services they received. 


                                              Review of State Policy, Medicaid Data, and Case File Documentation

                                              Policy Review - We reviewed Federal and Illinois State foster care 

                                              and Medicaid policies. All Illinois children eligible for the 

                                              Title IV-E foster care program are eligible for Medicaid services. 

                                              Federal law relating to EPSDT requires that States meet 

                                              reasonable standards of medical and dental practices as determined 

                                              by the State after consultation with recognized medical and dental 

                                              organizations. The Healthworks program satisfies the Federal 

                                              EPSDT requirement. Therefore, we used Healthworks guidelines 


        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   7
I   N   T    R       O      D         U   C   T    I    O       N


                                              to determine whether children in foster care had received their 

                                              most recent EPSDT examination within required frequency 

                                              guidelines.


                                              Medicaid Claims Data Review - The Illinois Department of Public 

                                              Aid and Illinois DCFS provided us with up to 3 years of Medicaid 

                                              claims histories for each of the children in our sample. The data 

                                              included claims for physician, dental, pharmaceutical, and mental 

                                              health services paid between January 1, 2000 and 

                                              December 31, 2002. We paid particular attention to the types of 

                                              health and mental health services provided, dates of service, where 

                                              the services were provided, and diagnoses, where available. Our 

                                              review included only Medicaid claims for services provided on or 

                                              after the date of the foster child’s most recent entry into foster care. 

                                              We defined examinations as current based on whether the most 

                                              recent examination was within State frequency guidelines.


                                              Case File Documentation Review - We requested and reviewed case 

                                              file documentation from local DCFS offices for all the children in 

                                              our sample. Information requested included the following: case 

                                              notes, documentation of medical and mental health services 

                                              provided, the child’s initial and most recent case plan, duration of 

                                              the child’s stay in foster care, and information regarding the child’s 

                                              general well-being.


                                              Interviews

                                              Foster Care Provider Interviews - We use the term “foster care 

                                              provider” to refer to a foster parent or a staff member of a 

                                              residential facility who is responsible for the child. We conducted 

                                              structured interviews with 46 of the foster care providers 

                                              responsible for the children in our sample between March 21, 2003 

                                              and April 11, 2003 (9 in person and 37 by telephone). We were 

                                              unable to speak with four of the foster care providers despite many 

                                              attempts to reach them. The interviews with foster care providers 

                                              focused on Medicaid programs and services available, training the 

                                              foster care provider received related to the health and well-being of 

                                              children, and their experiences accessing health care services for 

                                              the children included in our sample.


                                              Caseworker Interviews - We conducted structured telephone 

                                              interviews with each child’s caseworker between 

                                              March 18, 2003 and April 11, 2003. Each of these interviews 

                                              focused on the caseworker’s understanding of the Medicaid program 

                                              and services available, training related to the health and well-being 



        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   8
I   N   T    R       O      D         U   C   T    I    O       N


                                              of children, their experiences accessing services, and any barriers to
                                              health care. Each caseworker spoke specifically about the sampled
                                              child’s case, and generally about his or her own experiences
                                              working in foster care. We analyzed the caseworkers’ responses
                                              and compared them to those of the foster care providers, noting any
                                              consensus or disagreement within and between the two groups.

                                              State Agency Officials - To enhance our understanding of the State’s
                                              foster care and Medicaid programs, we consulted, both in person
                                              and by telephone, with representatives from DCFS and the Illinois
                                              Department of Public Aid. Our discussions covered a wide
                                              spectrum of information, including the overall provision of Medicaid
                                              services for children in foster care, Medicaid claims, the State’s
                                              Healthworks program, the structure of the State’s foster care
                                              service organization, and Medicaid claims for children in foster
                                              care.

                                              This inspection was conducted in accordance with the Quality
                                              Standards for Inspections issued by the President’s Council on
                                              Integrity and Efficiency.




        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   9
    F I N D I N G S 




All sampled children had Medicaid coverage                                                       In Illinois, all children eligible for

               and claims for health care services                                               the foster care program are eligible
                                                                                                 for Medicaid. Our review of
                                  Medicaid claims and interview data indicated that all 50 children in
                                  our sample had Medicaid coverage. Our analysis of claims data
                                  revealed that each sampled child had at least one Medicaid claim
                                  during the period of our review. Table 1 (below) details the total
                                  number of sampled children who received various types of
                                  Medicaid-covered services. The claims totals for each of the
                                  sampled children are provided in Appendix B.

                                                             Table 1: Number and Type of Medicaid Claims
                                                                     for 50 Children in the Sample*
                                                                                     Number of children with                          Total number of
                                                 Claim type                            at least one claim                                 claims
                                             Physician office                                               49                             990

                                            Prescription drug                                               40                             1028

                                                  Laboratory                                                38                             396

                                                     Dental                                                 38                             357

                                              Hospital/ASC**                                                30                             173

                                        Optometry/Audiology                                                 20                              65

                                               Mental health                                                18                             1579

                                                  Diagnostic                                                16                              56
                                       Physical/Occupational
                                                                                                            12                             942
                                              therapy
                                             Supplies                                                       12                             126
                                              Transportation                                                11                             231

                                     Primary care provider fee                                              11                             163

                                         Social work services                                                9                              66

                                            Early intervention                                               6                             112

                                          Case management                                                    5                             197

                                                      Total                                                                               6,481
                                  * Claims period: 01/01/00 to 12/31/02, or entry into care to 12/31/02
                                  **includes emergency room visits
                                  Source: OIG analysis of Illinois Medicaid claims data




    O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S                10
F   I      N       D      I     N     G   S



 All sampled children received their most                                                               Medical Examinations
recent EPSDT medical examinations, and                                                                  All sampled children received their
         76 percent received their most recent                                                          most recent EP SDT medical
                     EPSDT dental examinations, in                                                      examination in accordance with State
                   accordance with State guidelines                                                     guidelines and only one foster care
                                                                                                        provider reported having difficulty
                                              finding a physician to perform an annual EPSDT medical
                                              examination. Foster care providers’ apparent ease in finding
                                              physicians to perform annual medical examinations may be due to
                                              the fact that Illinois implemented a 13-percent higher
                                              reimbursement, on average, for physicians who treat children in
                                              State custody, to encourage physician enrollment and participation
                                              in the Healthworks program. 1 9

                                              Overall, 70 percent (32/46) of foster care providers reported they
                                              were familiar with the Illinois Healthworks program, and
                                              65 percent (30/46) of foster care providers knew the frequency
                                              schedule of EPSDT medical examinations. Ninety-six percent
                                              (48/50) of caseworkers knew of the Healthworks program, and
                                              86 percent (43/50) knew the frequency of required medical
                                              examinations. We found no association between caseworker tenure
                                              and knowledge of the frequency guidelines.

                                              The Illinois DCFS monitors well-child examination compliance
                                              rates through the biannual Administrative Case Reviews required
                                              for all children in foster care and publishes monthly reports on
                                              their findings. As of December 2002, the State found that
                                              62.4 percent of the 23,332 cases reviewed were in compliance with
                                              the annual examination requirement. Our finding of a 100-percent
                                              compliance rate may be due to our analysis of both medical claims
                                              data and case file documentation, while the State relies on the case
                                              files alone. Also, if the foster care provider is unable to attend the
                                              Administrative Case Review, information on recent medical
                                              examinations is less likely to be updated in the case file.




                                              19Georgetown     University, Child Development Center. (2000). Meeting the Health
                                                 Care Needs of Children in the Foster Care System, Site Visit Report: Healthworks
                                                 of Illinois. Retrieved December 12, 2003 from
                                                 http://gucdc.georgetown.edu/foster.html.



        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   11
F   I   N    D       I    N       G   S


                                          Dental Examinations

                                          We found that 76 percent (31/41) of sampled children received their
                                          most recent EPSDT dental examinations in accordance with State
                                          guidelines. 2 0

                                          We analyzed Medicaid claims and interview data in an attempt to
                                          identify factors that may explain the difference between the
                                          children who were current on their dental examination and those
                                          who were not. Of the 10 children who were past due on their dental
                                          examination, 5 of the foster care providers stated they were
                                          unaware of the availability of Medicaid services, whereas only 3 of
                                          27 foster care providers whose children were current on their dental
                                          examination were unaware of the availability of Medicaid services.
                                          Furthermore, 43 percent (16/37) of the foster care providers with
                                          whom we spoke mentioned some difficulty in finding dental
                                          providers who accept Medicaid. 2 1

                                          Overall, 70 percent (32/46) of foster care providers reported they
                                          were familiar with the Illinois Healthworks program, and
                                          65 percent (30/46) of foster care providers knew the frequency
                                          schedule of EPSDT dental examinations. Ninety-six percent
                                          (48/50) of caseworkers knew of the Healthworks program, and
                                          86 percent (43/50) knew the frequency of required dental
                                          examinations. We did not find any association between caseworker
                                          tenure and knowledge of the frequency guidelines.

                                          We detected no differences between the children receiving dental
                                          examinations and those who did not when analyzing the following
                                          variables: geographical region, caseworker involvement in the
                                          child’s health care, caseworker caseload size, child’s date of entry
                                          into foster care, total number of placements, total number of
                                          caseworkers, number of placements per entry, number of
                                          caseworkers per entry, age of the child, or foster care provider’s and
                                          caseworker’s knowledge of EPSDT frequency requirements.




                                          20Percentage of children receiving dental examinations is based on 41 of the
                                             50 sampled children. Nine children were not included because of their age.

                                          21Although  41 children were eligible for dental examinations, we were unable to
                                             speak with 4 foster care providers.


        O E I - 07 - 00 - 0 0 6 4 2       C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   12
F   I   N    D       I    N       G   S




        Ninety-seven percent of sampled children                                                              Illinois DCFS requires that all
            received Initial Health Screenings within                                                         children entering DCFS custody
                                                                                                              must receive an Initial Health
                                 required timeframes
                                                                                                              Screening within 24 hours of
                                          entering DCFS custody in order to document possible acute medical
                                          problems and abuse and to provide the caseworker with
                                          appropriate medical information necessary for placement. The
                                          caseworker is responsible for ensuring that the child receives the
                                          Initial Health Screening. If the child is discharged from a hospital
                                          into DCFS custody, the hospital discharge summary substitutes for
                                          the Initial Health Screening.

                                          While only 2 children had paid Medicaid claims for an Initial
                                          Health Screening, our case file review showed that 97 percent
                                          (30/31) 2 2 of the sampled children entering State custody received
                                          their Initial Health Screening or were discharged from the hospital
                                          into DCFS custody.

                                          During the course of the interviews, no caseworkers reported
                                          having knowledge of problems obtaining Initial Health Screenings.
                                          The Initial Health Screening can take place at a hospital or clinic
                                          24 hours a day, 7 days a week, or at a physician’s office during
                                          business hours. The ability to take a child to a medical provider at
                                          any time of the day, coupled with the fact that the Initial Health
                                          Screening is one of the first medically-related tasks a caseworker
                                          must provide when a child enters State custody, may explain the
                                          high percentage of sampled children receiving this service.



        Only 42 percent of sampled children received                                                                  Illinois DCFS requires that

                Comprehensive Health Evaluations within                                                               all children entering DCFS
                                                                                                                      custody receive a
                                   required timeframes	
                                                                                                                      Comprehensive Health
                                          Evaluation within 21 days of entering State custody, which includes
                                          an in-depth physical examination and comprehensive medical and
                                          psychosocial history. The medical professional conducting the
                                          Comprehensive Health Evaluation also initiates the Health
                                          Passport during the visit. The foster care provider is generally


                                          22Because   our Medicaid claims data ranged from January 1, 2000 to December 31,
                                             2002, we only reviewed the 31 children for this service who entered State custody
                                             on or after January 1, 2000.


        O E I - 07 - 00 - 0 0 6 4 2       C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S        13
   F   I    N     D       I    N       G   S


                                               responsible for scheduling and taking the child to the
                                               Comprehensive Health Evaluation.

                                               We found that 42 percent (13/31)2 3 of the sampled children entering
                                               DCFS custody received their Comprehensive Health Evaluation
                                               within required timeframes. Our review of claims data and case
                                               files revealed that an additional 42 percent (13/31) of the sampled
                                               children in foster care had their Comprehensive Health Evaluation
                                               outside the required timeframe, ranging from 22 days to 266 days.
                                               We could not find any evidence for a Comprehensive Health
                                               Evaluation for five children. Only one child had a Medicaid claim
                                               for a Comprehensive Health Evaluation. None of the caseworkers
                                               or foster care providers indicated problems obtaining
                                               Comprehensive Health Evaluations for the sampled children.

                                               A possible explanation of why sampled children in compliance with
                                               the Comprehensive Health Evaluation requirement is lower than
                                               the percentage in compliance with the Initial Health Screening
                                               requirement may be that access to Comprehensive Health
                                               Evaluation prov iders is more limited. While the Initial Health
                                               Screening is available 24 hours a day, the Comprehensive Health
                                               Evaluation is available only during regular business hours with a
                                               preference toward selected primary care providers. Also, foster care
                                               providers are generally responsible for obtaining the
                                               Comprehensive Health Evaluations after a child is placed with
                                               them, whereas caseworkers are responsible for obtaining an Initial
                                               Health Screening within 24 hours of custody.



Only 1 of 14 sampled children received a Mental                                                              Illinois DCFS requires that all
           Health Screen within required timeframes	                                                         children 5 years of age or older
                                                                                                             entering DCFS custody receive a
                                               Mental Health Screen within 21 days of entry. The medical
                                               professional conducting the Comprehensive Health Evaluation also
                                               conducts the Mental Health Screen during the same visit.

                                               Fourteen sampled children were at least 5 years of age when
                                               entering DCFS custody. Of these 14 children, only 1 child received
                                               a Mental Health Screen within required timeframes. Our review of


                                               23Because  our Medicaid claims data ranged from January 1, 2000, to
                                                  December 31, 2002, we reviewed case files for the receipt of a Comprehensive
                                                  Health Evaluation for only the 31 children who entered State custody on or after
                                                  January 1, 2000.


             O E I - 07 - 00 - 0 0 6 4 2       C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   14
F   I   N    D       I    N       G   S


                                          case files demonstrated that an additional 2 children had their
                                          Mental Health Screen, but beyond the required timeframes ranging
                                          from 33 days to 84 days. None of the caseworkers indicated they
                                          were aware of problems obtaining Mental Health Screens at the
                                          Comprehensive Health Evaluation.

                                          Because the Mental Health Screen occurs at the same time as the
                                          Comprehensive Health Evaluation, we expected the sampled
                                          children would have received a Mental Health Screen at the same
                                          rate they received Comprehensive Health Evaluations. We could
                                          not identify a reason why the Mental Health Screens were not
                                          conducted.

                                          Only 18 children had a Medicaid claim for mental health related
                                          services and 86 percent (1352/1579) of the mental health claims
                                          were for the 5 children in residential facility placements. 24 There
                                          were two children diagnosed with Attention Deficit and
                                          Hyperactivity Disorder and Post Traumatic Stress Disorder with no
                                          Medicaid mental health claims. All other children with a diagnosed
                                          mental health disorder had at least one Medicaid mental health
                                          claim, and three children with no mental health disorders also
                                          received mental health services as evidenced by claims data. We
                                          did not evaluate the adequacy of the mental health services
                                          provided.

                                          Medicaid funds allocated to Healthworks do not include specific
                                          payments for mental health services, and Medicaid funds to provide
                                          mental health services for children in State custody are managed
                                          separately by DCFS. The provision of mental health services
                                          through private agencies is included as part of its contracted
                                          payment from DCFS. Thus, mental health services provided by
                                          these agencies would not necessarily be billed to Medicaid.




                                          24   One child was recently transferred from a residential facility to a foster home and
                                               the most recent placement is reflected in Appendix A.


        O E I - 07 - 00 - 0 0 6 4 2       C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   15
  F   I   N    D       I    N       G   S


Health Passports are in only 48 percent of case                                                           The Illinois Health Passport
 files and are not updated at the Administrative                                                          satisfies the Federal requirement
                                                                                                          that a child’s health record be
                                                                  Case Review
                                                                                                          reviewed, updated, and supplied to
                                            the foster care provider when they are placed in foster care. The
                                            Health Passport also is required to be reviewed and updated at
                                            each Administrative Case Review.

                                            Seventy-four percent (34/46) of the foster care providers
                                            interviewed stated they received a medical history at the time of
                                            placement, and 87 percent (40/46) of their caseworkers reported
                                            having a medical history available. Thirty-eight caseworkers
                                            indicated that they provided the foster care provider with the
                                            sampled child’s medical history, and 34 foster care providers
                                            indicated they received it, demonstrating that the initial transfer of
                                            medical history information is occurring in 85 percent (34/40) of the
                                            cases where the information is available.

                                            Upon our review, however, we identified copies of the Health
                                            Passport in only 48 percent (24/50) of the case files. Only eight of
                                            these copies were up-to-date and only two copies contained all the
                                            required medical information. 2 5 A vulnerability to losing parts of a
                                            child’s medical history is created if information is not recorded
                                            timely in the Health Passport, or if the Health Passport is never
                                            initiated. In some instances, the sample child’s Health Passport
                                            was missing information even though the required medical
                                            information was available in other case file documentation.
                                            One caseworker reported that they did not have the Health
                                            Passport because the foster parent had lost it. These situations
                                            raise the possibility that children might receive duplicate services
                                            or that needed services may be delayed or not obtained.

                                            Only 54 percent (27/50) of case files contained documentation that a
                                            6-month Administrative Case Review had been conducted within
                                            the last 6-month period. The Health Passports are to be reviewed
                                            and updated at the time of each Administrative Case Review, but
                                            this appears not to be occurring in all cases. Of the Administrative
                                            Case Reviews completed for our sample, 44 percent (12/27) had no
                                            documentation indicating that the child’s health passport was



                                            25Required  information includes, if available: immunizations, illnesses, allergies,
                                               medications, medical conditions, dental examinations, vision and hearing
                                               screenings, medical examinations, and other pertinent information.


          O E I - 07 - 00 - 0 0 6 4 2       C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   16
F    I    N       D      I        N   G   S


                                          reviewed and updated as required. An additional 15 percent (4/27)
                                          of the case files indicated a review had taken place but contained no
                                          Health Passport or plan for remediation.

                                          Six foster care providers reported that the lack of medical history
                                          adversely affected the health of the child. Specifically, foster care
                                          providers stated the lack of medical history made it difficult to care
                                          effectively for the children placed with them, made it difficult to
                                          answer basic questions about the child’s past medical care, and
                                          caused other problems, such as subjecting the child to repeated
                                          immunizations because records of previous immunizations were
                                          unavailable.




    O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   17
R E C O M M E N D A T I O N S 





                              RECOMMENDATIONS
                              The EPSDT program is intended to detect various health needs.
                              However, if children do not receive required health care services or
                              medical information is not updated and given to the foster care
                              providers, children’s health may be negatively affected. Therefore,
                              we recommend that:

                              ACF work with the Illinois DCFS to increase the number of:

                              o	      Comprehensive Health Evaluations and Mental Health Screens
                                      received within required timeframes

                              o	      Health Passports that are (1) updated on an ongoing basis,
                                      (2) reviewed for accuracy and completeness during the
                                      Administrative Case Review, and (3) copied each time the
                                      health information is updated, so that a copy of the most recent
                                      health passport is maintained in the case file and provided to
                                      the foster care provider

                              CMS work with ACF and the Illinois Department of Public Aid to:

                              o	      Prevent potentially unnecessary costs to the Medicaid program
                                      resulting from duplicate services provided as the result of
                                      incomplete and outdated Health Passports




O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   18
R   E   C      O       M       M      E   N   D       A      T      I     O      N    S



                                              AGENCY COMMENTS
                                              ACF indicated the background information included in this report
                                              provided a useful perspective of the problem and the case file
                                              documentation and analysis of claims data were informative.

                                              ACF noted that it is working with DCFS to improve the provision of
                                              health and mental health services to children in foster care and
                                              that the provision of these services will be addressed in Illinois’
                                              Program Improvement Plan in response to a Child and Family
                                              Services Review. Child and Family Services Reviews measure
                                              individual States’ performance related to the health and well-being
                                              of children in the child welfare system.

                                              CMS agrees in part with our recommendation, recognizing the
                                              concern about the potential for Federal and State funds being
                                              unnecessarily expended for duplicate Medicaid services; however,
                                              CMS believes DCFS should work to better inform foster care
                                              parents and providers of the availability of services and the State
                                              requirements under the Healthworks and Passport program.




        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   19
                   A P P E N D I X ~ A



    Sampled Children

                                                         The table below is merely descriptive in nature and describes the
                                                         demographic characteristics of each sampled child and his or her
                                                         foster care placement history at completion of our interviews in
                                                         April 2003.



                                                   Entries                  Placements Months since Caseworkers     Months
           Age         Placement                             Months since
ID Sex                                           into foster                 since last      last     since last caseworker
         (years)         setting                             last entry (2)
                                                  care (1)                    entry (3) placement (2)   entry    with case (2)
1   F      10             Kinship                    1                       17                       2                           7                          3   2
2   M      3              Kinship                    1                       21                       1                          21                          1   21
3   M      3               Family                    1                       27                       3                          17                          4   3
4   M      1               Family                    1                       16                       1                          16                          2   1
5   F      9          No Interview                   1                      104                       2                        102                           3   16
6   F      11              Family                    1                         9                      3                           9                          1   9
7   F      1              Kinship                    1                       20                       1                          20                          3   2
8   F      4               Family                    1                       16                       4                           2                          3   6
9   M      4               Family                    1                       47                       1                          47                          3   9
10 F       11              Family                    1                       71                       4                          26                          8   23
11 M       10              Family                    1                       88                       5                          28                          3   4
12 M       10              Family                    1                       17                       3                           2                          1   17
13 M       12             Kinship                    1                       46                       4                          15                          3   17
14 F       4               Family                    1                       32                       4                          19                          2   5
15 M       9              Kinship                    1                       14                       1                          14                          1   14
16 M       7               Family                    2                       24                       2                           6                          1   24
17 M       4               Family                    1                       28                       3                          15                          2   8
18 F       17              Family                    1                       61                       6                          19                          2   16
19 M       13             Kinship                    1                       58                       1                          58                          3   1
20 F       8          No Interview                   1                       68                       2                          26                          3   23
21 F       1               Family                    1                       16                       1                          16                          2   4
22 M       8               Family                    1                       58                       1                          58                          1   58
23 M       13             Kinship                    1                       81                       2                          72                          5   1
24 M       8              Kinship                    1                       50                       2                          17                          2   35
25 F       17             Kinship                    2                       85                       5                          13                          5   24
26 M       17              Family                    1                       35                       5                          10                          3   2
27 F       4               Family                    1                       15                       2                           8                          2   6
28 F       7               Family                    2                       26                       3                          15                          2   25
29 F       8               Family                    1                       12                       2                          11                          1   12
30 M       16          Residential                   1                       29                       3                          19                          1   29
31 F       15              Family                    1                       30                       2                          28                          3   15
32 M       8              Kinship                    1                       95                       3                          15                          2   1


                   O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S           20
A   P    P   E    N     D      I     X      ~    A



                                                   Entries                  Placements Months since Caseworkers     Months
           Age         Placement                             Months since
ID Sex                                           into foster                 since last      last     since last caseworker
         (years)         setting                             last entry (2)
                                                  care (1)                    entry (3) placement (2)   entry    with case (2)
33 M         2              Family                   1                       27                       1                          27                          2   23
34 F         15        Residential                   1                       20                       3                          14                          4   6
35 F         5              Family                   1                       29                       2                          25                          2   24
36 M         1              Family                   1                       16                       1                          16                          1   16
37 M         5              Family                   1                       38                       2                          12                          4   5
38 F         12        Residential                   1                       28                       2                          14                          1   28
39 M         2              Family                   1                       25                       1                          25                          2   21
40 M         5        No Interview                   1                       23                       2                          23                          2   6
41 F         13        Residential                   1                       17                       9                          13                          3   4
42 M         3              Family                   1                       36                       1                          36                          1   36
43 M         12             Family                   1                       82                       2                          59                          3   3
44 M         5            Kinship                    1                       60                       2                          48                          3   10
45 M         10           Kinship                    1                      116                       2                          75                          2   8
46 F         12             Family                   2                       33                       3                           9                          3   14
47 F         18       No Interview                   1                       73                       1                          73                          4   4
48 F         6              Family                   2                       16                       1                          16                          2   16
49 M         3              Family                   1                       39                       1                          39                          2   22
50 F         15             Family                   1                       15                       3                          10                          1   15



                                                         KEY
                                                         (1) “Entries into foster care” refers to the number of times a child 

                                                         has entered State custody (i.e., number of foster care “episodes”).


                                                         (2) “Months since last entry” is the length of time from the date of 

                                                         the child’s most recent entry into State custody until 

                                                         April 2003, which coincides with the period of interviews with 

                                                         caseworkers and foster care providers. “Months since last 

                                                         placement” is the length of time from the date of the most recent 

                                                         placement to the date the foster care provider was interviewed. 

                                                         “Months caseworker with case” is the length of time from the date 

                                                         the caseworker initially took over the foster child’s case until the 

                                                         date the caseworker was interviewed. 


                                                         (3) “Placements since last entry” refers to the number of placement 

                                                         settings (e.g. Foster Home A, Foster Home B, Metro Residential 

                                                         Facility) a child has experienced during the most recent entry into 

                                                         foster care. 





                   O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S           21
                      A P P E N D I X ~ B

          Medicaid Claims for Sampled Children

                                                          The table below indicates each child’s receipt of required services
                                                          and total claims for January 1, 2000 to December 31, 2002, or entry
                                                          into care to December 31, 2002, whichever is shorter.



                   Number of Medicaid Claims                                                                                Initial Examinations (4)                    Current EPSDT
                                                                                                Health
     Physician’s     Dental              Prescription        Mental health
ID                                                                                            Passport in               IHS(1)            CHE(2)              MHS(3)   Medical     Dental
       office       services             medications           services
                                                                                               case file
1        9               0                           2                   0                           N                      N*                 N                N        Y           N
2        32              0                          192                  0                           N                      N*                 N                         Y
3        14              1                          72                  87                           N                      N*                 N*                        Y           Y
4        41              0                           6                   0                           N                      N*                  Y                        Y
5        11             20                           2                   0                           Y                                                                   Y           Y
6        5               6                           3                   2                           N                      N*                 N                N        Y           Y
7        25              0                           9                   0                           Y                      N*                 N                         Y
8        3               3                           0                   0                           Y                      N*                 N*                        N*          Y
9        12              0                          16                   0                           Y                                                                   Y          N*
10       12             12                           1                   0                           N                                                                   Y           Y
11       5              14                           5                   0                           Y                                                                   Y           Y
12       11             16                           9                   0                           N                      N*                 N                N        Y           Y
13       3               5                           0                  20                           Y                                                                   N*         N*
14       39              5                           5                   0                           Y                      N*                 N*                        Y           Y
15       3               3                           0                   0                           N                      N*                 N                N        N*          Y
16       22             12                           0                   2                           N                      N*                 N*               N        Y           Y
17       9               4                           2                   0                           Y                      N*                 N                         Y           Y
18       16             18                          22                   0                           Y                                                                   N*          Y
19       19              0                           0                   0                           Y                                                                   Y           N
20       41              4                          35                  18                           N                                                                   Y           Y
21       16              0                          20                   0                           Y                      N*                 N*                        N*
22       28              6                          57                   2                           N                                                                   Y           Y
23       4              10                           0                   0                           Y                                                                   Y           Y
24       21              6                          26                   0                           Y                                                                   Y           Y
25       13              9                          11                   8                           Y                                                                   N*          N
26       19              6                          89                 455                           Y                      N*                 N                N        Y           N
27       28              5                           5                   0                           N                      N*                 N*                        Y           Y
28       9               5                           2                   8                           N                                                                   Y           N
29       4               4                           6                   0                           Y                      N*                 N                N        N*          Y
30       8              14                           9                 369                           N                      N*                 N*               N        Y           N
31       9              15                           0                   0                           Y                      N*                 N*               N*       Y           Y
32       38             17                          60                   0                           N                                                                   Y           Y
33       53              0                          34                   0                           N                       Y                 N*                        Y
34       6              14                           6                  90                           N                       Y                 N                N        N*          Y

                      O E I - 07 - 00 - 0 0 6 4 2         C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S                   22
         A    P    P    E      N      D       I     X     ~    B


                       Number of Medicaid Claims                                                                                     Initial Examinations (4)                    Current EPSDT
                                                                                                         Health
     Physician’s         Dental                   Prescription        Mental health
ID                                                                                                     Passport in               IHS(1)            CHE(2)              MHS(3)   Medical     Dental
       office           services                  medications           services
                                                                                                        case file
35       31                    7                          25                      0                           N                      N*                 N                         Y           N
36       3                     0                          12                      0                           Y                      N                  N                         N*
37       27                    3                          42                     17                           N                      N*                 N                         Y          N*
38       15                    9                          7                       9                           N                      N*                 N                N        Y           N
39       87                    0                          21                      0                           N                      N*                 N                         N*
40       34                    3                          4                       2                           Y                      N*                 N*                        Y           Y
41       56                    7                          89                    429                           Y                      N*                 N                N        Y           Y
42       0                     6                          22                      0                           Y                      N*                 N*                        N*
43       9                    13                          0                       0                           Y                                                                   Y           N
44       42                    0                          10                      2                           N                                                                   Y           N
45       17                   13                          67                     57                           N                                                                   N*          Y
46       4                     4                          0                       2                           N                      N*                 N                N        Y           Y
47       33                   14                          1                       0                           N                                                                   Y           Y
48       29                   38                          6                       0                           N                      N*                 N*               N        Y           Y
49       5                     0                          0                       0                           Y                      N*                 N                         Y
50       10                    6                          16                      0                           Y                                                                   Y           Y



                                                                   KEY
                                                                   (1) IHS (Initial Health Screening; required within 24 hours of
                                                                   custody)

                                                                   (2) CHE (Comprehensive Health Evaluation; required within
                                                                   21 days of custody)

                                                                   (3) MHS (Mental Health Screen; required within 21 days of custody
                                                                   for children in foster care aged 5 years and above)

                                                                   (4) Initial Examinations: “Y” indicates that initial medical/dental
                                                                   examination was received within required timeframes, as evidenced
                                                                   by a Medicaid claim. “N” indicates examination was not received
                                                                   within required timeframes. “N*” indicates that Medicaid claims
                                                                   data did not support a positive finding, but evidence was found in
                                                                   the case file to support the positive finding. Shaded areas indicate
                                                                   children who were not eligible for the service due to age or date of
                                                                   entry into the system, which was outside the scope of claims data.

                                                                   Current EPSDT Examinations: Medical/Dental: “Y” indicates that
                                                                   an EPSDT medical/dental examination was received according to
                                                                   Illinois Healthworks frequency timeframes, as evidenced by a
                                                                   Medicaid claim. “N” indicates examination was not received


                            O E I - 07 - 00 - 0 0 6 4 2            C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S                   23
A   P   P    E       N      D      I      X   ~   B

                                                  according to Illinois Healthworks frequency timeframes.
                                                  ”N*” indicates that Medicaid claims data did not support a positive
                                                  finding, but evidence was found in the case file to support the
                                                  positive finding. Shaded areas indicate children who were not
                                                  eligible for the service due to age or date of entry into the system,
                                                  which was outside the scope of claims data.




            O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   24
    A P P E N D I X ~ C 





O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   25

A   P   P      E      N       D       I   X   ~   C




        O E I - 07 - 00 - 0 0 6 4 2           C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   26

A   P    P       E      N         D   I   X      ~      C




    O E I - 07 - 00 - 0 0 6 4 2               C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   27

�        A P P E N D I X                                      ~          D 





    O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   28

A C K N O W L E D G M E N T S 





                              This report was prepared under the direction of Brian Pattison,
                              Regional Inspector General for Evaluation and Inspections in
                              the Kansas City Regional Office, and Gina Maree, Assistant
                              Regional Inspector General. Other principal Office of Evaluation
                              and Inspections staff who contributed include:

                              Deborah Walden, Team Leader

                              Brian T. Whitley, Lead Analyst

                              Zula Crutchfield, Program Analyst

                              Tricia Fields, Program Analyst

                              Steven Milas, Program Analyst

                              Linda Paddock, Program Analyst

                              Elander Phillips, Program Analyst

                              Dennis Tharp, Program Analyst

                              Michala Walker, Program Analyst

                              Linda Hall, Program Specialist (Washington, D.C.)

                              Barbara Tedesco, Mathematical Statistician (Baltimore)




O E I - 07 - 00 - 0 0 6 4 2   C H I L D R E N’ S U S E   OF   H EALTH C ARE WH I L E   IN   F O S T E R CA R E : IL L I N O I S   29
